Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




      MEDICARE COMPLIANCE
      FOLLOWUP REVIEW OF
     BOSTON MEDICAL CENTER




  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                      David Lamir
                                                     Acting Regional
                                                    Inspector General

                                                        May 2013
                                                      A-01-12-00524
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Boston Medical Center did not fully comply with Medicare requirements for billing inpatient
and outpatient services, resulting in overpayments of $612,063 over 3 years.

WHY WE DID THIS REVIEW

A previous Office of Inspector General review found that Boston Medical Center (Boston
Medical) did not fully comply with Medicare billing requirements for billing selected inpatient
and outpatient claims. The incorrectly billed claims included Medicare Part A inpatient short
stays and Part B outpatient evaluation and management (E&M) services billed with cystoscopy
procedures for calendar years (CY) 2009 and 2010. The previous report did not address audit
results for 60 inpatient short stays because these claims required further evaluation by medical
review personnel. Our current review focuses on these 60 inpatient short-stay claims and
expands the review of outpatient E&M services.

The objective of this review was to determine whether Boston Medical complied with Medicare
requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned. The DRG payment is, with certain
exceptions, intended to be payment in full to the hospital for all inpatient costs associated with
the beneficiary’s stay. CMS pays for hospital outpatient services on a rate-per-service basis that
varies according to the assigned ambulatory payment classification.

Boston Medical is a 508-bed acute care hospital located in Boston, Massachusetts. Medicare
paid Boston Medical approximately $496 million for 26,088 inpatient and 663,529 outpatient
claims for services provided to beneficiaries during CYs 2009 through 2011 based on CMS’s
National Claims History data.

Our current audit covered $899,115 in Medicare payments to Boston Medical, consisting of
$671,442 for 60 inpatient claims and $227,673 for 371 outpatient claims.

WHAT WE FOUND

Boston Medical complied with Medicare billing requirements for 105 of the 431 inpatient and
outpatient claims we reviewed. However, Boston Medical did not fully comply with Medicare
billing requirements for the remaining 326 claims, resulting in overpayments of $612,063 for
CYs 2009 through 2011. Specifically, 54 inpatient claims had billing errors, resulting in
overpayments of $593,169, and 272 outpatient claims had billing errors, resulting in
overpayments of $18,894. These errors occurred primarily because Boston Medical did not have
adequate controls to prevent incorrect billing of Medicare claims and did not fully understand the




Medicare Compliance Followup Review of Boston Medical Center (A-01-12-00524)                   i
Medicare billing requirements related to inpatient short stays and outpatient E&M services billed
with cystoscopy procedures.

WHAT WE RECOMMEND

We recommend that Boston Medical:

    •   refund to the Medicare contractor $612,063, consisting of $593,169 in overpayments for
        54 incorrectly billed inpatient claims and $18,894 in overpayments for 272 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

BOSTON MEDICAL CENTER COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, Boston Medical concurred with our finding and
recommendations for the incorrectly billed outpatient E&M services and stated that it has
refunded the full amount to the Medicare contractor and has improved controls and strengthened
audit processes related to these services.

With respect to our finding related to claims incorrectly billed as inpatient, Boston Medical
stated that it has made improvements to ensure compliance with Medicare and has engaged a
third-party vendor to review these claims. Boston Medical stated that the vendor’s review will
assist it in making a final determination as to which claims it will appeal and which claims it will
refund to the Medicare contractor.

We acknowledge Boston Medical’s efforts to implement stronger controls.




Medicare Compliance Followup Review of Boston Medical Center (A-01-12-00524)                    ii
                                                    TABLE OF CONTENTS

INTRODUCTION........................................................................................................................1

       Why We Did This Review ...................................................................................................1

      Objective................................................................................................................................1

      Background ...........................................................................................................................1
          The Medicare Program ..................................................................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Outpatient Prospective Payment System ........................................................2
          Boston Medical Center ..................................................................................................2

      How We Conducted This Review........................................................................................2

FINDINGS ....................................................................................................................................2

      Billing Errors Associated With Inpatient Claims .............................................................3
            Incorrectly Billed as Inpatient .......................................................................................3

       Billing Errors Associated With Outpatient Claims ..........................................................3
             Incorrectly Billed Evaluation and Management Services .............................................3


RECOMMENDATIONS.............................................................................................................4

BOSTON MEDICAL CENTER COMMENTS AND OFFICE OF INSPECTOR
  GENERAL RESPONSE........................................................................................................4

APPENDIXES

        A: Audit Scope and Methodology.....................................................................................5

        B: Results of Review by Risk Area ...................................................................................7

        C: Boston Medical Center Comments..............................................................................8




Medicare Compliance Followup Review of Boston Medical Center (A-01-12-00524)                                                                iii
                                                   INTRODUCTION

WHY WE DID THIS REVIEW

A previous Office of Inspector General (OIG) review found that Boston Medical Center (Boston
Medical) did not fully comply with Medicare billing requirements for billing selected inpatient
and outpatient claims. 1 The incorrectly billed claims included Medicare Part A inpatient short
stays and outpatient evaluation and management (E&M) services associated with cystoscopy
procedures for calendar years (CY) 2009 and 2010. 2 The previous report did not address audit
results for 60 inpatient short stays because these claims required further evaluation by medical
review personnel. Our current review focuses on these 60 inpatient short-stay claims and
expands the review of outpatient E&M services.

OBJECTIVE

Our objective was to determine whether Boston Medical complied with Medicare requirements
for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.




1
 In July 2012, we issued a report entitled Medicare Compliance Review of Boston Medical Center for Calendar
Years 2009 and 2010 (A-01-11-00530).
2
    A cystoscopy is a diagnostic examination of the bladder and bladder canal (urethra) using an endoscope.


Medicare Compliance Followup Review of Boston Medical Center (A-01-12-00524)                                  1
Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services
within each APC group. 3 All services and items within an APC group are comparable clinically
and require comparable resources.

Boston Medical Center

Boston Medical is a 508-bed acute care hospital located in Boston, Massachusetts. Medicare
paid Boston Medical approximately $496 million for 26,088 inpatient and 663,529 outpatient
claims for services provided to beneficiaries during CYs 2009 through 2011 based on CMS’s
National Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our current review covered $899,115 in Medicare payments to Boston Medical, consisting of
$671,442 for 60 inpatient claims and $227,673 for 371 outpatient claims. These 431 claims had
dates of service in CYs 2009 through 2011 (audit period). We focused our review on two areas
at risk for incorrect billing, inpatient claims for short stays and outpatient claims containing
E&M services billed with cystoscopy procedures, that we identified as a result of our prior OIG
review at Boston Medical. We removed the 60 inpatient claims for short stays from the previous
review because they required further evaluation. We did not review the 371 outpatient claims
containing E&M services during the previous review. We evaluated compliance with selected
billing requirements and subjected 60 inpatient claims to focused medical review to determine
whether the services were medically necessary. This report focuses on selected risk areas and
does not represent an overall assessment of all claims submitted by Boston Medical for Medicare
reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our scope and methodology.

                                                 FINDINGS

Boston Medical complied with Medicare billing requirements for 105 of the 431 inpatient and
outpatient claims we reviewed. However, Boston Medical did not fully comply with Medicare

3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Followup Review of Boston Medical Center (A-01-12-00524)                                 2
billing requirements for the remaining 326 claims, resulting in overpayments of $612,063 for the
audit period. Specifically, 54 inpatient claims had billing errors, resulting in overpayments of
$593,169, and 272 outpatient claims had billing errors, resulting in overpayments of $18,894.
These errors occurred primarily because Boston Medical did not have adequate controls to
prevent the incorrect billing of Medicare claims and did not fully understand the Medicare billing
requirements related to inpatient short stays and outpatient E&M services billed with cystoscopy
procedures.

For the results of our review by risk area, see Appendix B.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

Boston Medical incorrectly billed Medicare for 54 of the 60 selected inpatient claims that we
reviewed. These errors resulted in overpayments of $593,169.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), §1862(a)(1)(A)).

For 54 of the 60 selected claims, Boston Medical incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient or outpatient with observation
services. Boston Medical officials stated that the hospital’s case management protocol did not
always include coverage for weekend and evening shifts. As a result of these errors, Boston
Medical received overpayments of $593,169. 4

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Boston Medical incorrectly billed Medicare for 272 of the 371 selected outpatient claims that we
reviewed. These errors resulted in overpayments of $18,894.

Incorrectly Billed Evaluation and Management Services

The Medicare Claims Processing Manual states that a Medicare contractor pays for an E&M
service that is significant, separately identifiable, and above and beyond the usual preoperative
and postoperative work of the procedure (Pub. No. 100-04, chapter 12, § 30.6.6(B)).

For 272 of the 371 selected claims, Boston Medical incorrectly billed Medicare for E&M
services that were not significant, separately identifiable, and above and beyond the usual
preoperative and postoperative work of the procedure. These E&M services were billed with

4
 Boston Medical may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed or adjudicated by the Medicare
administrative contractor prior to the issuance of our report.


Medicare Compliance Followup Review of Boston Medical Center (A-01-12-00524)                                     3
cystoscopy procedures. Boston Medical officials stated that these errors occurred due to staff
within a hospital department who did not fully understand the Medicare billing requirements for
E&M services. As a result of these errors, Boston Medical received overpayments of $18,894.

                                      RECOMMENDATIONS

We recommend that Boston Medical:

    •   refund to the Medicare contractor $612,063, consisting of $593,169 in overpayments for
        54 incorrectly billed inpatient claims and $18,894 in overpayments for 272 incorrectly
        billed outpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

              BOSTON MEDICAL CENTER COMMENTS AND OFFICE OF
                       INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Boston Medical concurred with our finding and
recommendations for the incorrectly billed outpatient E&M services and stated that it has
refunded the full amount to the Medicare contractor and has improved controls and strengthened
audit processes related to these services.

With respect to our finding related to claims incorrectly billed as inpatient, Boston Medical
stated that it has made improvements to ensure compliance with Medicare and has engaged a
third-party vendor to review these claims. Boston Medical stated that the vendor’s review will
assist it in making a final determination as to which claims it will appeal and which claims it will
refund to the Medicare contractor.

We acknowledge Boston Medical’s efforts to implement stronger controls. Boston Medical’s
comments are included in their entirety as Appendix C.




Medicare Compliance Followup Review of Boston Medical Center (A-01-12-00524)                    4
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our current audit covered $899,115 in Medicare payments to Boston Medical, consisting of
$671,442 for 60 inpatient claims and $227,673 for 371 outpatient claims that we judgmentally
selected at risk for billing errors. These 431 claims had dates of service in CYs 2009 through
2011 (audit period).

We focused our review on inpatient claims for short stays and outpatient claims containing E&M
services billed with cystoscopy procedures that we identified as a result of our prior OIG review
at Boston Medical. We evaluated compliance with selected billing requirements and subjected
the 60 inpatient claims to focused medical review to determine whether the services were
medically necessary.

We limited our review of Boston Medical’s internal controls to those applicable to the inpatient
and outpatient areas of review because our objective did not require an understanding of all
internal controls over the submission and processing of claims. We established reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Boston Medical for Medicare reimbursement.

Our fieldwork included contacting Boston Medical, located in Boston, Massachusetts, from
November 2012 through February 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted Boston Medical’s inpatient and outpatient paid claim data from CMS’s
        National Claims History file for the audit period;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 431 claims (60 inpatient and 371 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;

    •   reviewed the itemized bills and medical record documentation provided by Boston
        Medical to support the selected claims;


Medicare Compliance Followup Review of Boston Medical Center (A-01-12-00524)                     5
    •   requested that Boston Medical conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   used an independent medical review contractor to determine whether 60 selected claims
        met medical necessity requirements;

    •   discussed the incorrectly billed claims with Boston Medical personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Boston Medical officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Followup Review of Boston Medical Center (A-01-12-00524)                 6
                     APPENDIX B: RESULTS OF REVIEW BY RISK AREA


                                                                                   Claims
                                                                   Value of         With     Value of
                                                    Selected       Selected        Over-      Over-
                  Risk Area                         Claims         Claims         payments   payments
Inpatient

Short Stays                                            60            $671,442        54        $593,169



Outpatient
Evaluation and Management Services Billed
                                                       371           $227,673       272         $18,894
With Cystoscopy Procedures


 Inpatient and Outpatient Totals                       431           $899,115       326        $612,063




   Medicare Compliance Followup Review of Boston Medical Center (A-01-12-00524)                  7
                       APPENDIX C: BOSTON MEDICAL CENTER COMMENTS 





      lXCEPTiONAL CAll(. WITHOUT EXC(PTIOH.


     April30, 2013



     Michael Annstrong
     Regional Inspector General for Audit Services
    ·Office of Audit Services, Region I
     JFK Federal Building
     15 New Sudbury Street, Room 2425
     Boston, MA 02203



     Re: 	    Report Number: A-01-12-00524 "Medicare Compliance Followup Review ofBoston
              Medical Center'' .

     Dear Mr. Armstrong:

     Boston Medical Center (the ''Hospital") appreciates the opportunity to respond to the
     Government's report referenced above, which addresses a review of 60 inpatient short stays that
     required further evaluation by medical review personnel and an expansion ofthe Government's
     earlier review of outpatient evaluation and management (''E&M") services provided in
     conjunction with cystoscopy procedures. The Hospital takes compliance with Medicare
     requirements seriously and reaffirms its commitment to ensuring that the Hospital's internal
     controls are adequate and effective.

     The Hospital's responses to the Government's recommendations are set forth below.

    Inpatient Short Stays. The Government's report found that 54 of the 60 inpatient short stay
    claims included in the review had billing errors, resulting in alleged overpayments totaling
    $593,169. Since the time these claims were submitted (2009- 2011), BMC has implemented a
    number of improvements to its level of care determination process to ensure compliance with
    Medicare requirements. Among other things, BMC has worked to increase the involvement of
    case managers in the Emergency Department, secure additional staff training, and increase the
    number of case management positions to allow for better coverage on weekends and evening
    shifts. BMC also has worked to provide physicians and case managers with additional support
    tools to help ensure that relevant factors are considered when determining the appropriate level
    of care for patients. Additionally, since February 2012, BMC has instituted specific processes to
    ensure that all inpatient cases billable to Medicare undergo validation of the assigned level of
    care. Further reviews of Medicare claims are also conducted to ensure that the physician orders
    support the intended level of care in each case.


    5721333v l

Medicare Compliance Followup Review of Boston Medical Center (A-01-12-00524)                       8
     BMC has engaged a third party vendor review the 54 short stay claims that the Government has
     concluded were billed with errors. Upon completion of the vendor's review, which is expected
     within the next 30 days, BMC will make a fmal determination as to whether and for which
     claims it will submit appeals and for which claims it will issue a prompt refund to the Medicare
     contractor. To the extent that additional controls issues are identified by the third party vendor
     as part of their review, BMC will also consider and implement appropriate measures to further
     ensure compliance with Medicare requirements.

     Outpatient E&M Claims

    The outpatient E&M claims that are the subject of this review were associated with cystoscopy
    procedures performed at the Hospital. BMC agrees with the findings in the Government's
    report with regard to these claims and has already refunded $18,894 to the Medicare contractor
    to resolve those claims. BMC has taken steps to strengthen its internal review and audit
    processes related to these services. Furthermore, the Hospital has re-educated the staff in the
    Department responsible for performing cystoscopy procedures regarding the circumstances
    under which E&M services may be billed on the same day as a cystoscopy procedure.

    Thank you again for the opportunity to respond to the Government's report.




iL::~~~
~~ard       W. Silveria
    Senior Vice President of Finance and Chief Financial Officer




    5721333vl

Medicare Compliance Followup Review of Boston Medical Center (A-01-12-00524)                              9
